                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                          OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

    Case Number: A08030014                                                                   Page 1 of 1



         This case of duplicative proposals was resolved when funding for the subject's' NSF proposal2
         was withdrawn3 because of its significant similarity to a previously-funded NIH proposal4.

         As a follow-up to this case, the subject's other NSF and NIH proposals were investigated to
         determine if this case was part of a pattern. Under NSF's policy on submitting duplicative
         proposals, no other violations occurred.

         However, this case is now being referred to the IG's office at HHS because it was discovered in
         the course of the investigation that two funded NIH proposals shared a high level of similar text.
         On the side of NSF, no further action will be taken.

                   Accordingly, this case is closed.




I
NSF OIG Fonn 2 (1 1/02)
